NATIONAL CREDIT UNION ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL




         OIG CAPPING REPORT ON
         MATERIAL LOSS REVIEWS

            Report #OIG-10-20
            November 23, 2010




              William A. DeSarno
               Inspector General


                  Released by:




                James W. Hagen
           Assistant Inspector General
OIG Capping Report on Material Loss Reviews
OIG-10-20




    CONTENTS



       Section                                                       Page




    ACRONYMS                                                           ii

    INTRODUCTION AND BACKGROUND                                        1

    OBJECTIVE, SCOPE, AND METHODOLOGY                                  1

    RESULTS IN DETAIL                                                  2

               A. Why the Credit Unions Failed                         2
               B. NCUA and SSA Supervision of Credit Unions in OIG
                                                                      20
                   MLR Reports


    APPENDICES

               A. NCUA-OIG Material Loss Reviews                      23

               B. Management Comments                                 24




                                                                            i
OIG Capping Report on Material Loss Reviews
OIG-10-20


ACRONYMS

ABS             Asset Backed Security
AIRES           Automated Integrated Regulatory Examination System
ALCO            Asset/Liability Committee
ALM             Asset Liability Management
CDO             Collateralized Debt Obligation
CEO             Chief Executive Officer
CLC             Construction Loan Company
CLTV            Combined Loan-to-Value [ratio]
CUDL            Credit Union Direct Lending
DOR             Document of Resolution
ECIE            Executive Council on Integrity and Efficiency
EIC             Examiner in Charge
FCU Act         Federal Credit Union Act
FPR             NCUA Financial Performance Report
HELOC           Home Equity Line of Credit
IRR             Interest Rate Risk
LTV             Loan-to-Value
MBL             Member Business Loans
MBS             Mortgage-backed Securities
MLR             Material Loss Review
NCUA            National Credit Union Administration
NCUSIF          National Credit Union Share Insurance Fund
NINA            No Income No Assets
OIG             Office of Inspector General
PCIE            President‟s Council on Integrity and Efficiency
RCL             Residential Construction Loan
SSA             State Supervisory Authority




                                                                     ii
OIG Capping Report on Material Loss Reviews
OIG-10-20


Introduction and Background

The purpose of this report is to summarize significant findings from material loss
reviews (MLRs) recently issued by the NCUA Office of Inspector General (OIG). The
Federal Credit Union Act (FCU Act) requires the OIG to conduct a MLR of an insured
credit union if the loss to the National Credit Union Share Insurance Fund (NCUSIF)
exceeds $251 million and an amount equal to 10 percent of the total assets of the credit
union at the time at which the NCUA Board initiated assistance or was appointed
liquidating agent. We issued ten MLR reports during the period from November 2008
through October 2010. The failed credit unions described in this report were located in
NCUA Regional Offices I, II, III, and V. A list of OIG issued MLR reports is provided in
Appendix A.

Objective, Scope, and Methodology

For the ten MLRs summarized in this report, the objectives were to: (1) determine the
cause(s) of the credit union‟s failure and the resulting loss to the NCUSIF; and (2)
assess NCUA‟s supervision. To achieve these objectives, we analyzed NCUA and
State Supervisory Authority2 (SSA) examination and supervision reports and related
correspondence; interviewed key management and staff from NCUA headquarters and
regional offices and the SSAs, as applicable; and reviewed NCUA policies and
procedures, Call Reports, and Financial Performance Reports (FPRs). Based on
similarities and trends found in the first ten MLRs completed by the OIG, we are making
12 recommendations to NCUA management for corrective action.

We conducted this review from August 2010 to November 2010. The MLRs issued by
the OIG have been performed in accordance with generally accepted government
auditing standards3, and additional details concerning the scope and methodology of
each of the prior MLRs can be found in the individual reports listed in Appendix A.




1
  On July 21, 2010, the President signed into law the Wall Street Reform and Consumer Protection Act of 2010,
raising the threshold for future NCUA-OIG MLRs from $10 to $25 million.
2
  Six MLRs involved reviewing state chartered credit unions.
3
  We performed one report, NCUA-OIG Report #OIG-08-10, Material Loss Review of Huron River Area Credit Union,
issued November 26, 2008, in accordance with PCIE/ECIE Quality Standards for Inspections.


                                                                                                            1
OIG Capping Report on Material Loss Reviews
OIG-10-20



Results in Detail

A. Why the Credit Unions Failed

                               Our MLR reports confirm overwhelmingly that credit union
    Management’s               management‟s actions greatly contributed to the failure of
    Actions Contributed
                               each of the ten institutions reviewed by the OIG.
    to Every MLR Failure
                               Specifically, we found three significant actions that
                               management was either unwilling or unable to effectively
manage or mitigate that exposed these credit unions to significant amounts of risk: (1)
poor strategic planning and decision making; (2) inadequate oversight (policies and
internal controls); and (3) fraud.4

In all ten of our MLRs, we found management‟s poor strategic decisions and weak
management oversight over lending or investment practices (including one fraud)
contributed to the failure. In addition, we had two other MLRs that involved alleged
fraud schemes perpetrated by management. Finally, we found management‟s actions
created credit, liquidity, and concentration risks, as well as other significant issues that
management did not, or could not, effectively manage because the risks and associated
issues had become too interrelated and inseparable.

We also identified several shortcomings related to NCUA and SSA supervision efforts.
Specifically, we identified examiner deficiencies in quality control efforts and
examination procedures. We believe had examiners acted more aggressively in their
supervision actions over these critical issues, the looming safety and soundness
concerns that were present early-on in nearly every failed institution, could have been
identified sooner and the eventual losses to the NCUSIF could have been stopped or
mitigated.




4
 Center Valley Federal Credit Union‟s failure was determined to be caused by fraud, whereas New London Security
Credit Union and St. Paul Croatian Federal Credit Union were alleged frauds.

                                                                                                                  2
OIG Capping Report on Material Loss Reviews
OIG-10-20



The following chart provides a snapshot of eight major issue areas common among
each of the first ten MLRs conducted by the OIG.

                                                                                              Supervisory
                Management Actions Contributing to Failure
                                                                                             Shortcomings
             Ineffective                       New
            Management                     Program or
                                                                              Member                     Poor
               (Poor       Concentration   Services &    Liquidity   Credit                QCR
                                                                              Business                Examination
            Planning and       Risk        Third Party     Risk      Risk                Deficiency
                                                                              Lending                 Procedures
               Weak                            Due
             Oversight)                     Diligence
 Huron
                 X              X              X            X          X         X                        X
 River

Norlarco         X              X              X            X          X         X

 New
                 X              X                                                            X            X
London
  High
                 X              X                                      X         X           X            X
 Desert
 Center
                 X              X                                                                         X
 Valley
Cal State
                 X              X              X            X          X                                  X
    9

 Eastern
Financial        X              X              X            X          X         X                        X
 Florida

Clearstar        X              X              X            X          X         X                        X


 Ensign          X              X              X            X          X         X                        X


St. Paul         X              X                           X          X         X           X            X




                                                                                                              3
OIG Capping Report on Material Loss Reviews
OIG-10-20



We found ineffective management present in all ten MLRs performed by the OIG.
Specifically, we found that management made poor strategic decisions and performed
inadequately in overseeing credit union operations. Chart A (below) provides a
summary of management‟s actions and examiner‟s inactions related to weaknesses in
effectively managing and supervising credit union operations.
Chart A

 Credit Union           MLR Issue: Ineffective Management (Poor Strategic Planning and
                        Decision Making and Weak Management Oversight)

                        Management developed inadequate strategic plans over its new lending
                        program (out of state construction lending in Florida) and had weak oversight
 Huron River Area       over the program. (Note: credit union management also failed to disclose this
 Credit Union           plan to examiners.) Examiners may not have adequately monitored or
                        reacted prudently or timely to trends that indicated the safe and sound
                        operation of the credit union may have been in jeopardy.
                        Management developed inadequate strategic plans over a new lending
                        program (out of state construction lending), had weak oversight over the
                        program (policies and controls), and did not conduct the proper due diligence
 Norlarco Credit
                        over its participation program after making the strategic decision to participate
 Union
                        its loans to other financial institutions to meet liquidity needs. Examiners
                        failed to adequately evaluate the safety and soundness of Norlarco‟s loan
                        participation program.
                        Management‟s inadequate oversight and weak internal controls over
                        investment activity allowed an alleged fraudulent scheme to occur.
                        Examiners did not adequately evaluate the risk in New London‟s investment
 New London
                        program, despite investments accounting for over 90 percent of the credit
 Security Credit
                        union assets. In addition, although examiners noted the lack of internal
 Union
                        controls over investments, including the lack of a safekeeping agreement,
                        they failed to expand examination procedures or elevate such issues for
                        stronger supervisory actions.
                        Management did not adequately oversee credit union operations regarding its
                        real estate construction program and member business lending. The credit
                        union‟s Board did not adequately monitor senior management, and senior
                        management, in turn, showed a significant lack of involvement and
 High Desert Federal    knowledge of the credit union and its risks. NCUA examiners did not
 Credit Union           adequately evaluate the risk in the real estate construction portfolio due to a
                        lack of objectivity based on a lack of staff rotation, and failed to expand
                        examination procedures. Examiners also failed to elevate repeated DOR
                        issues and violations of NCUA Rules and Regulations for stronger
                        supervisory actions.
                        Management‟s inadequate oversight facilitated an embezzlement fraud
                        scheme committed against the credit union by its CEO. NCUA examiners did
 Center Valley          not adequately evaluate the risks to the credit union‟s operations. Specifically,
 Federal Credit Union   examiners failed to accurately assess the impact of the credit union‟s weak
                        internal controls when assessing transaction risk and the Management
                        component rating.




                                                                                                            4
OIG Capping Report on Material Loss Reviews
OIG-10-20


(Chart A Continued)

 Credit Union           MLR Issue: Ineffective Management (Poor Strategic Planning and
                        Decision Making and Weak Management Oversight)

                        Management developed inadequate strategic plans over a new program
                        (Indirect HELOCs) and had weak oversight over credit union operations.
                        Examiners did not respond adequately or timely to credit and liquidity risks
 Cal State 9
                        considering: (1) the rate and level of growth of the HELOC portfolio; (2) the
 Credit Union
                        excessive concentration of HELOCs, nearly all of which contained subprime
                        elements; and (3) the continuing changes in the California real estate market
                        environment.
                        Management developed inadequate strategic plans for investments in
                        complex private-placement Collateralized Debt Obligations (CDOs) and
                        construction and development loans. This was combined with management‟s
 Eastern Florida        weak oversight over credit union operations. Examiners did not take stronger
 Financial Credit       supervisory action to influence the credit union‟s Board and management to
 Union                  limit the significant level of risk assumed during the institution‟s rapid growth
                        period. Examiners also did not establish a more appropriate supervisory tone
                        to prompt the Board and management to take more timely and adequate
                        action to address examiner concerns.
                        Management‟s inadequate strategic plans over an indirect auto loan program
                        and its weak and unresponsive oversight created credit and liquidity risk that
 Clearstar Financial    management failed to monitor and control. Management‟s strategic plan also
 Credit Union           included making capital expansion a priority, increasing the drain on needed
                        cash. Examiners failed to require the Board and management to make
                        substantive changes in their lending practices, which resulted in credit and
                        concentration risks in the credit union‟s loan portfolio.
                        Management‟s inadequate strategic plans over its real estate loans and its
                        weak and unresponsive oversight to address concentrations in the credit
 Ensign Federal         union‟s loan portfolio created credit and liquidity risk. Examiners did not
 Credit Union           adequately assess critical risks created by management decisions and
                        strategies related to concentration, credit, liquidity, and profitability. Further,
                        examiners did not aggressively pursue a timely resolution to concerns raised
                        in examinations.
                        Inadequate management oversight by the credit union‟s Board and
                        Supervisory Committee coupled with weak internal controls facilitated an
                        alleged fraud scheme committed against the credit union by its CEO.
 St. Paul Croatian
                        Examiners did not adequately evaluate the risks to St. Paul‟s operations by
 Federal Credit Union
                        thoroughly evaluating the credit union‟s internal controls when assessing
                        transaction risk; nor did examiners ensure credit union management took
                        corrective action on repetitive DOR issues; or expand examination
                        procedures when “red flag” indicators were present.




                                                                                                              5
OIG Capping Report on Material Loss Reviews
OIG-10-20



Recommendations
The issues summarized in Chart A (above) highlight the importance of examiners
reviewing credit union management‟s strategic decisions and their abilities to oversee
operations, issues we believe that require NCUA management‟s attention. Therefore,
we are making the following recommendations.

We recommend NCUA management:

     1. Caution examiners that assigning CAMEL5 composite ratings of 1 or 2 to credit
        unions that implement new business strategies needs to be supported with
        compelling, verified mitigating factors. Such mitigating factors should consider
        things such as the institution‟s corporate governance, risk management controls,
        allowance for loan and lease losses methodologies, concentration limits, funding
        sources, underwriting standards, capital levels, and whether the mitigating
        factors are likely to be sustainable in the long-term.

     2. Require a documented secondary review of the final CAMEL ratings by the
        Supervisory Examiner for all credit unions over $100 million in assets prior to
        issuance to credit union management.

     3. Issue a national instruction placing more emphasis on quarterly monitoring of
        Call Reports including developing offsite monitoring triggers and specific
        procedures to more easily „red flag‟ areas to be investigated as well as provide a
        specific time allocation.

     4. Require examiners to document and retain the specific procedures and analysis
        performed during their quarterly review of the 5300 Call Reports. This analysis
        should then be forwarded to the Supervisory Examiner for review.

Management’s Comments
NCUA management agreed with Recommendations 1, 3, and 4; and partially agreed
with Recommendation 2. For Recommendation 1, management indicated they are
revising the Examiner‟s Guide to include appropriate guidance for evaluating risk related
to new business strategies and are currently developing an early risk indicator process
that will use a more robust examination tool within AIRES to help identify new and fast-
growing programs. For Recommendation 2, management partially agreed stating that
although they agree with having the Supervisory Examiner conduct a pre-delivery report
review, they believe the $100 million threshold suggested by the OIG for triggering such
reviews is too low. Management indicated they plan to evaluate this further and set a
trigger when the policy is established. For Recommendation 3, management indicated
the Office of Examination and Insurance plans to issue a new national supervision
manual that will emphasize the importance of off-site monitoring of institutions via the

5
 The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.


                                                                                                    6
OIG Capping Report on Material Loss Reviews
OIG-10-20



Call Report, FPR, and National Risk Reports. The new manual will, in part, provide a
means to identify which credit unions represent the most risk. For Recommendation 4,
management indicated the new national supervision manual will establish a formal
method to perform quarterly reviews and specify a process to communicate which credit
unions represent the most risk.

Evaluation of Management’s Comments
Management‟s current and planned actions are responsive to the recommendations.
For Recommendation 2 regarding establishment of a threshold for pre-delivery report
review, we agree with management‟s approach and believe it is prudent for
management to evaluate and determine the appropriate level.




                                                                                      7
OIG Capping Report on Material Loss Reviews
OIG-10-20



We found concentration risk present in all ten MLRs performed by the OIG.
Chart B (below) provides details for each.
Chart B

 Credit Union          MLR Issue: Concentration Risk

                       Management concentrated well over 50 percent of the credit union‟s total
                       assets and 67 percent of its loan portfolio in an out of state (Florida)
                       construction loan program. Management also committed the credit union to
                       approximately $65 million in future loans. Although examiners in the
 Huron River Area      September 30, 2001 examination identified a concentration risk associated
 Credit Union          with loans, the concentration issue involved the number of loans assigned to
                       the credit union‟s third-party provider. Additionally, examiners did not identify
                       concentration risk as an issue until six years later during the credit union‟s last
                       examination in January 2007 (Effective September 30, 2006), one month prior
                       to NCUA conserving the credit union.
                       Management created two concentration risks: The first occurred when
                       management entered into a $30 million monthly commitment in an out of state
                       (Florida) residential construction lending program operated by a single third-
                       party servicer. The second when 97 percent of the credit union‟s assets were
                       in one geographic location. At its peak, Norlarco‟s outstanding residential
                       construction program loans and unfunded commitments were more than 83
 Norlarco Credit
                       percent of total assets. Although examiners identified the credit union‟s
 Union
                       concentration risk during the first full scope examination following the credit
                       union‟s initial funding activities for the residential construction lending
                       program, Colorado SSA examiners issued a DOR that allowed management
                       to consider one of three methods for limiting its concentration risk. This
                       occurred despite NCUA management officials‟ prior agreement with the
                       Colorado SSA to include specific language in the DOR to require credit union
                       management limit new construction loan commitments.
                       A fraud scheme (embezzlement) perpetrated by New London‟s account
 New London            manager caused this credit union to fail. The credit union (operating as an
 Security Credit       investment club) had 94 percent of its assets in investments. Examiners did
 Union                 not view the concentration of investments as safety and soundness concerns
                       serious enough to warrant more aggressive supervisory action.
                       Beginning in 2003, management expanded the level of real estate
                       construction lending both as member originated and as member business
                       loans. The Credit Union‟s assets grew from $60 million in 2000 to more than
                       $180 million by September 2006 due to the increase in real estate
 High Desert Federal
                       construction loans and member business lending. Concentration in
 Credit Union
                       construction lending comprised over 60 percent of the loan portfolio in 2005,
                       2006, and 2007. We found examiners did not adequately document their
                       evaluation of the credit union‟s concentration risk or how the concentration of
                       real estate construction loans impacted the scope of their supervisory efforts.




                                                                                                             8
OIG Capping Report on Material Loss Reviews
OIG-10-20


 (Chart B Continued)

 Credit Union           MLR Issue: Concentration Risk
                        Management created two concentration risks. The first was a significant
                        number of indirect HELOCs made within the credit union‟s overall loan
                        portfolio. The second was that substantially all of the indirect HELOCs
                        contained subprime elements. Management allowed the credit union‟s
 Cal State 9
                        indirect HELOC portfolio to grow from $4.6 million in March 2003 to $357
 Credit Union
                        million by June 2007 (7,661 percent), which was 80 percent of total assets
                        and 92 percent of total loans. Examiners did not adequately assess Cal State
                        9‟s indirect HELOC program and did not respond adequately or timely to the
                        risks facing Cal State 9 considering that nearly all the HELOCs contained
                        subprime elements.
                        Management created a concentration risk by investing in complex CDOs
                        backed by Home Equity Loan – Asset Backed Securities. Management
                        purchased $149 million in CDOs between December 2005 and June 2007,
                        nearly $95 million of which were purchased in the three month period from
                        March – June 2007. Although examiners recognized the level of complexity
 Eastern Financial      and sophistication in the credit union before significant problems surfaced,
 Florida Credit Union   and commented that management was strong in the area of research and
                        setting controls, but was often too aggressive and overlooked the need to
                        ensure regulatory compliance. We found that earlier and stronger
                        supervisory action may have influenced the credit union‟s Board and
                        management to limit the significant level of risk assumed during the
                        institution‟s rapid growth period.
                        Management created significant concentration risks in their CUDL indirect
                        Auto and Recreational Vehicle loan program. Management allowed rapid
 Clearstar Financial
                        growth in the program as indirect loan volume reached $84.5 million at June
 Credit Union
                        30, 2008, 54 percent of total loans. Examiners did not adequately assess nor
                        aggressively pursue resolution of critical risks created by Clearstar
                        management‟s high risk strategies related to loan concentration.
                        Management allowed a concentration in its first mortgage and other real
                        estate loans of approximately 75%. Although examiners identified the
 Ensign Federal
                        concentration risk in the credit union‟s real estate loan portfolio four years
 Credit Union
                        prior to the eventual purchase and assumption that occurred in November
                        2009; examiners indicated the risk was mitigated by management conducting
                        the appropriate ALM practices.
                        St. Paul management allowed fraudulent share secured loans to make up 88
                        percent of total loans and 90 percent of total assets. Examiners did not
 St. Paul Croatian
                        expand examination procedures when red flags indicated higher risks to the
 Federal Credit
                        credit union. Despite the credit union‟s fraudulent share secured loans
 Union
                        accounting for well over ninety percent of the credit union‟s total assets,
                        examiners never expanded their review and raised concentration risk as a
                        safety and soundness concern.




                                                                                                         9
OIG Capping Report on Material Loss Reviews
OIG-10-20



Recommendations
The issues summarized in Chart B (above) highlight the importance of examiners
reviewing asset concentration, an issue we believe that requires NCUA management‟s
attention. Therefore, we are making the following recommendations.

We recommend NCUA management:

    5. Determine whether to propose and/or change regulatory guidance to establish
       limits or other controls for concentrations that pose an unacceptable safety and
       soundness risk and determine an appropriate range of examiner response to
       high risk concentrations.

    6. Develop a more specific process such as trigger reports or standards so
       examiners can better identify, analyze, and monitor loan concentrations during
       exams, as well as between exams.

    7. Require a breakout of unfunded commitments by loan type on the 5300 Call
       Report to facilitate analysis and to better track loan concentrations.

Management’s Comments
NCUA management agreed with recommendations 5, 6, and 7. For Recommendation
5, management indicated the Office of Examination and Insurance is currently drafting a
revision to the risk based net worth structure in the Prompt Corrective Action regulation.
For Recommendation 6, management stated they are currently redesigning the quality
control process which will include a documented review by Supervisory Examiners and
DOS staff for proper scoping, identification, and evaluation of risk for areas triggering a
risk threshold on quarterly risk reports. For Recommendation 7, management indicated
they will add two additional categories of unfunded commitments not currently captured
on the 5300 Call Report: indirect and third-party loans.

Evaluation of Management’s Comments
Management‟s current and planned actions are responsive to the recommendations.




                                                                                        10
OIG Capping Report on Material Loss Reviews
OIG-10-20



We found that management did not conduct adequate due diligence when starting a
new program or service, or when working with a third-party. Chart C (below) provides
those credit unions where either new programs, third-party relationships, or both were
established, and management did not conduct the appropriate due diligence.

Chart C
 Credit Union           MLR Issue: New Program or Service and Third-Party Due
                        Diligence

                        Huron management failed to perform due diligence over its Florida
                        construction lending program, and conducted minimal up front due diligence
                        of its third-party vender, the Construction Loan Company (CLC).
 Huron River Area       Management delegated authority to CLC to originate, underwrite, approve,
 Credit Union           and perform all servicing and collection functions but provided virtually no
                        over-sight of the program. Examiners determined, that credit union
                        management did not exercise due diligence by evaluating the third party
                        relationship held with its lender, CLC.
                        Management failed to perform due diligence over its Florida residential
                        construction lending program, as well as its relationship with its third-party
                        vendor, First American. Management allowed First American complete
                        control in making and overseeing all of the credit union‟s residential
                        construction loans. This included the entire servicing function such as
                        underwriting of the borrower, qualifying the borrower as a potential member of
 Norlarco Credit        the credit union, arranging for the contractor to build the home, conducting the
 Union                  inspections, forwarding draw requests and interest payments based on its
                        own inspections and schedule, qualifying the borrower for take-out financing,
                        and forwarding extensions of matured loans and interest payments on those
                        loans. Examiners did not evaluate the safety and soundness of Norlarco‟s
                        overall participation program. Examiners did not associate the rapid rise of
                        loans sold through participations as a potential safety and soundness concern
                        to Norlarco, or to the NCUSIF, but rather examiners merely viewed
                        participations as a means to manage Norlarco‟s balance sheet risk.
                        Management did not take the time to gain the necessary experience needed
                        to understand and manage all of the related risks with their newly initiated
 Cal State 9
                        HELOC program before aggressively pursuing the program. Examiners did
 Credit Union
                        not adequately assess the credit union‟s indirect HELOC program.
                        Specifically, examiners did not adequately assess the overall terms and
                        characteristics of the indirect HELOC program early on.
                        Management and the Board did not conduct the proper due diligence prior to
                        investing in complex CDOs and therefore did not have sufficient expertise to
                        understand and manage the risks imposed to the credit union‟s net worth.
                        Examiners did not consider the ability of credit union officials to: (1) explain
 Eastern Financial      the instrument‟s characteristics and risks; (2) obtain and adequately evaluate
 Florida Credit Union   the instrument‟s market pricing, cash flows, and test modeling; (3) define,
                        explain, and document how the high-risk investments fit into the credit union‟s
                        ALM strategy; and (4) the effect that either holding or selling the high-risk
                        bonds would have on earnings, liquidity, and net worth in different interest
                        rate environments.




                                                                                                       11
OIG Capping Report on Material Loss Reviews
OIG-10-20


 (Chart C Continued)

                       MLR Issue: New Program or Service and Third-Party Due
 Credit Union
                       Diligence
                       Management did not perform the appropriate due diligence over its new
                       CUDL indirect auto and recreational vehicle lending program. In attempting
 Clearstar Financial   to determine how examiners analyzed credit union management‟s risk
 Credit Union          management practices, competence, and due diligence over a new and/or
                       fast growing program such as the credit union‟s .indirect auto lending
                       program, we found no formal supporting documentation to make a
                       determination.
                       Management did not perform the appropriate due diligence over its new real
 Ensign Federal
                       estate lending program. No formal documentation was found to determine
 Credit Union
                       how management competence and overall risk management practices were
                       analyzed and assessed by examiners


Recommendations
The issues summarized above highlight the importance of examiners reviewing
management‟s due diligence over new programs or services as well as due diligence
over third-party relationships. Issues we believe that require NCUA management‟s
attention. Therefore, we are making the following recommendations.

We recommend NCUA management:

     8. Re-emphasize examination guidance for third-party relationships, with particular
        attention to the assessment of the risk the relationship may pose to the credit
        union‟s safety and soundness.

     9. Develop examination guidance for due diligence over new or fast growing
        programs and areas of emphasis, with particular attention to the risk the new
        program or new area may pose to the credit union‟s safety and soundness.

Management’s Comments
NCUA management agreed with recommendations 8 and 9. For Recommendation 8,
management indicated they will continue to emphasize the importance of monitoring
and closely evaluating controls over third party relationships and moving forward into
2011 will require the completion of the existing third-party questionnaire as a minimum
scope requirement. For Recommendation 9, management indicated they have
previously shifted to an annual examination cycle for all federal and important state
chartered credit unions and will continue to emphasize close evaluation of fast-growing
programs. Management also indicated they plan to expand risk triggers and indicators,
and plan to scale examination procedures and the depth of reviews on identified risks.
In addition, management stated they are currently undertaking a significant redesign of
the quality control process.

Evaluation of Management’s Comments
Management‟s actions taken and planned are responsive to the recommendations.

                                                                                                    12
OIG Capping Report on Material Loss Reviews
OIG-10-20



We found liquidity issues affected the following credit unions shown in Chart D (below).

Chart D
 Credit Union          MLR Issue: Liquidity Risk
                       Management did not ensure adequate liquidity controls in its ALM policy.
                       Liquidity deteriorated rapidly shortly after management allowed its real estate
                       construction program to comprise approximately 84 percent of total loans. To
 Huron River Area
                       meet liquidity needs, management aggressively marketed all types of
 Credit Union
                       deposits, offered share certificate specials, sold off securities, and
                       significantly increased its borrowings against its (already) increased line of
                       credit.
                       Management did not have an adequate ALM program in place to monitor its
                       liquidity position. When Norlarco‟s loan growth generated by its Residential
                       Construction Lending program reached more than 83 percent of total assets,
                       management was unable to manage its liquidity problems. Management also
                       sold construction loan participations. When the rate of participations began to
 Norlarco Credit       decrease significantly, management‟s lack of funding sources resulted in an
 Union                 increasingly leveraged and illiquid position. Although examiners recognized
                       several safety and soundness concerns, including liquidity risk, six years prior
                       to liquidation, examiners failed to convince management to get control of their
                       construction lending program. Examiners also failed to recognize the
                       inherent risks in the credit union‟s participation program, including liquidity
                       risk, as there was no discussion of the program in the Scope workbook or in
                       the Examiner‟s Findings documents.
                       Management created liquidity risk through their rapid and excessive funding
                       of high risk subprime indirect HELOCs. The credit union‟s high risk in liquidity
                       continued to increase due to poor liquidity management. To meet liquidity
                       needs, management sold participations, liquidated investments, borrowed
 Cal State 9           funds, and increased dividend rates to attract shares. Management failed to
 Credit Union          maintain the proper perspective of the interrelationships between its high
                       concentration of variable-rate subprime loans, interest rates, and the
                       California real estate market environment. Although examiners adequately
                       assessed the credit union‟s liquidity issues during each supervision contact,
                       examiners did not adequately monitor and did not respond aggressively or
                       timely to the credit union‟s increasing liquidity risk.
                       Management heavily invested in HELOC ABS and CDOs funded with short-
                       term borrowings. Management purchased $45 million worth of CDOs during
                       March and April 2007, which raised the credit union‟s investments in ABS and
                       CDOs close to the Florida Statute limit of $168 million. Management was
                       instructed, but did not expand its liquidity policies and procedures for alternate
                       sources and monitoring procedures under normal and stressed business
 Eastern Florida       conditions. Nor did management develop policy limits on leveraging to
 Financial Credit      address adequate availability of credit lines and other alternative liquidity
 Union                 sources for potential emergency or stressed conditions. Examiners identified
                       liquidity issues prior to the credit union ever investing in CDOs. In addition,
                       once the credit union received approval from the Florida SSA and began to
                       invest in CDOs, examiners recognized the “sophisticated investments” and
                       the level of complexity needed in the credit union to operate such a program.
                       However, despite all this, earlier and stronger supervisory action was needed
                       given the nature and extent of the risks.



                                                                                                        13
OIG Capping Report on Material Loss Reviews
OIG-10-20


 (Chart D Continued)

 Credit Union          MLR Issue: Liquidity Risk
                       Management‟s inability to manage its high loan growth coupled with a
                       deficient liquidity management program caused significant liquidity risk.
                       Between March 2003 and June 2004, liquidity fell from 12 percent to seven
                       percent. Cash plus short term investments decreased to an asset ratio of
                       6.65% from 8.01%, which was still significantly below peer of 14.84%.
                       Management‟s concentration in loans and deposits caused the credit union to
                       be nearly 100% loaned out. Management allowed the credit union‟s ALM
                       policy and liquidity policy to become inadequate with a policy limit of 2%
                       (actual ratio was 1.65%), well below Nevada state and federal requirements
                       of 5-6%. In addition, management‟s high overhead associated with new
 Clearstar Financial
                       branches, growing loan defaults, and high yielding CD‟s caused measurable
 Credit Union
                       liquidity pressure. Liquidity declined to under 4% by December 31, 2007, as
                       management continued to allow its liquidity policies and procedures to remain
                       inadequate. Additionally, the credit union was in violation of a Nevada State
                       statute requiring at least 5% of member accounts be held in liquid assets.
                       Although examiners routinely identified issues with the credit union‟ liquidity,
                       examiner conclusions were not consistent or reviewed by Supervisory
                       Examiners. In the December 2006 examination, examiners commented that
                       credit union management was “capable” when there were obvious and
                       serious continuing liquidity issues. In addition, examiners noted management
                       “manages its liquidity position effectively” but later in the same report, noted
                       that these same policies were “currently inadequate”.
                       Management did not understand how to adequately manage the balance
                       sheet for proper liquidity – management did not conduct short and long-term
                       liquidity planning. Management relied on one very large deposit relationship
 Ensign Federal        (a trust in the amount of $12 million) – when the trust removed the monies,
 Credit Union          the credit union lacked the liquidity to meet normal demand. Over the last
                       several years, management did not plan its borrowings, further illustrating a
                       lack of planning and oversight relating to liquidity. Examiners did not
                       adequately assess critical risks created by management decisions and
                       strategies related to liquidity.

 St. Paul Croatian     Management allowed liquidity issues to persist from 2004 through 2009.
 Federal Credit        Management did not address the credit union‟s liquidity risks identified in
 Union                 numerous, repetitive DORs.




Liquidity risk is an area of concern where examiners must be diligent in understanding
how financial ratios and trends together can provide a more accurate financial picture
than each viewed separately. Financial indicators such as adverse trends, unusual
growth patterns, or concentration activities can serve as triggers of changing risk and
possible causes for future problems. In OIG report number OIG-08-10, Material Loss
Review of Huron River Area Credit Union, the OIG recommended NCUA management
issue a Supervisory Letter to all Federal and State examiners to alert them of the need
to (1) analyze and understand financial ratios and trends individually and as a group
and (2) thoroughly analyze pertinent qualitative data in order to adequately assess the
safety and soundness of credit union operations.

                                                                                                       14
OIG Capping Report on Material Loss Reviews
OIG-10-20



NCUA management concurred with the OIG‟s recommendation indicating they had
reinforced the need for aggressive investigation and protection against perceived risks
in Letter to Credit Unions No.: 08-CU-20 Evaluating Current Risks to Credit Unions,
dated August 2008. The OIG concurred with management‟s response and therefore we
are not making a recommendation at this time.

We found issues with credit risk in eight of ten credit unions as shown in Chart E
(below).
Chart E
 Credit Union          MLR Issue: Credit Risk
                       Management allocated $30 million for a construction loan program with a
                       third-party, CLC, with a commitment to underwriting an additional $65 million
 Huron River Area
                       in future loans. Delinquencies and charge-offs were slightly above average.
 Credit Union
                       Credit union management may have ignored warnings regarding the
                       expected decline of housing values.
                       Management‟s actions created significant credit risks in its RCL portfolio.
                       Management allowed the credit quality of borrowers to decline steeply as it‟s
                       Residential Construction Loan program progressed. Management funded
                       many construction loans with sub-prime elements that included limited
                       documentation to support a borrower‟s capacity to repay, “stated-income,”
 Norlarco Credit
                       and No Income No Asset (NINA), where borrowers did not disclose income or
 Union
                       provide bank statements. Examiners recognized the increasing credit risk in
                       the credit union‟s construction loan program, and attempted to have
                       management implement corrective actions through updated policies and
                       parameters. Ultimately, examiners failed to convince management to
                       implement stronger internal controls over the construction lending program to
                       address the safety and soundness concerns the credit risks represented.
                       Management did not correct identified underwriting weaknesses repeatedly
                       brought to their attention, which allowed credit risk to heighten. Deficiencies
                       in underwriting included the excessive use of stated income, insufficient
                       equity standards, and a lack of verification of owner occupancy. In addition,
                       management did not follow lending guidelines and policies by allowing: (1)
                       unreasonable modifications and extensions; (2) loan to value percentages
                       above policy and regulatory limits, and (3) speculative lending (not identified
                       by management to the NCUA). Also, management allowed some borrowers
                       to make interest only payments without addressing the terms of the loan.
 High Desert Federal   Examiners determined the credit union had poor underwriting controls and
 Credit Union          loan monitoring and that a significant number of loans were stated income
                       and had insufficient equity. Examiners also determined lending guidelines
                       were not consistently followed and delinquency reporting was inaccurate.
                       Examiners determined that borrowers of matured loans were allowed to make
                       interest only payments without formally extending their loans. These loans
                       were not classified as past due, thus understating the level of reported
                       delinquent loans. However, examiners did not adequately evaluate the risk in
                       the credit union‟s construction loan portfolio and failed to elevate repeated
                       issues for stronger supervisory actions. Examiners also did not expand
                       examination procedures when they should have done so.




                                                                                                       15
OIG Capping Report on Material Loss Reviews
OIG-10-20


 (Chart E Continued)

 Credit Union          MLR Issue: Credit Risk

                       Management created credit risk in its indirect HELOC portfolio through weak
                       underwriting standards, which allowed management to concentrate a
                       significant percentage of its assets in indirect HELOCs. In addition,
                       substantially all of the HELOCs contained elements of subprime lending such
 Cal State 9           as stated income, high CLTVs, low credit scores, and being in a junior
 Credit Union          position behind negative amortization first mortgages. Although examiners
                       adequately assessed Cal State 9‟s increasing credit risk during each
                       supervision contact, examiners did not respond aggressively or timely to that
                       risk. Specifically, examiners did not require Cal State 9 management to: (1)
                       improve its underwriting standards for the indirect HELOC program; or (2)
                       limit or reduce its concentration of risky HELOCs.
                       Management exposed the credit union to significant credit risk. Specifically,
                       management failed to understand the significant underlying credit risk their
                       investment in CDOs posed to the credit union‟s capital and net worth. Also,
                       management allowed the credit union‟s commercial loan portfolio to exceed
                       three of the maximum limitations set by Federal Regulations. Forty percent of
                       the commercial loan portfolio (over $90 million) was in construction and
                       development loans in Florida. Despite the weakened real estate market in
                       Florida, which only amplified the threat to net worth and increased the credit
 Eastern Florida
                       union‟s overall credit risk exposure, management was still in the process of
 Financial Credit
                       adding to the credit risk by decentralizing the lending function and increasing
 Union
                       unsecured lower grade paper (“C”, “D” and “E”) loans. Finally, management
                       allowed a large volume of its mortgage products to have a high loan-to-value
                       (LTV) ratio, which again added to its increased credit risk. At its peak, over
                       34 percent of the total mortgage loan portfolio represented loans with a LTV
                       ratio exceeding 90 percent. Approximately 8 percent of which were HELOC
                       related loans (line of credit and credit card) where the credit union did not
                       have a first lien. Examiners had few criticisms of credit union management or
                       operations prior to 2007. Examiners failed to timely identify key risk areas.
                       Management originated and funded a significant amount of loans that were
                       both poorly underwritten and made to borrowers with poor credit histories.
                       Additionally, management used modified borrower classification matrixes that
                       allowed them to approve loans to borrowers that were of a much higher credit
                       risk than industry standards would expect. Also, management extended an
                       inordinate number of delinquent loans when borrowers could not meet
                       obligations in order to stem the flow of collection issues, despite little
 Clearstar Financial
                       evidence these borrowers would have the ability to meet their obligations
 Credit Union
                       when the extension period expired. Finally, management focused a large
                       portion of the loan portfolio on an indirect auto lending program for new and
                       used vehicle loans originated by both credit union personnel and new and
                       used auto and recreational vehicle dealers. This program coupled with liberal
                       underwriting policies encouraged a high volume of new loans that ultimately
                       increased delinquencies as well. Examiners did not adequately assess nor
                       aggressively pursue resolution of critical risks created by Clearstar
                       management‟s high risk strategies related to credit quality.




                                                                                                       16
OIG Capping Report on Material Loss Reviews
OIG-10-20


 (Chart E Continued)


 Credit Union          MLR Issue: Credit Risk

                       Management failed to monitor or control credit risk associated with its real
                       estate secured lending portfolio. Specifically, the Allowance for Loan Loss
                       methodology was faulty, weak polices for loan-to-value (LTV) ratios were
                       adopted (which allowed HELOC loans of up to 100 percent and 40-year
                       mortgage terms), monitoring of interest rate risk (IRR) related to loans was
 Ensign Federal
                       inadequate, and the credit union‟s weak collection process created
 Credit Union
                       delinquencies. When combined with the excessive decline in the Las Vegas
                       real estate market, management‟s actions created credit risk that ultimately
                       contributed to the credit union‟s large losses and ultimately its failure.
                       Examiners did not adequately or consistently identify key risks and failed to
                       appropriately downgrade the CAMEL components in a timely manner,
                       resulting in a lack of focus, communication, and attention on growing risks.
                       The CEO‟s fraud scheme contributed to the creation of credit risk in the loan
                       portfolio. Loan and member business loans (MBL) policies were minimal.
 St. Paul Croatian
                       Real estate policies were lax with appraisals and LTV. Income verification
 Federal Credit
                       was not performed. Members with poor credit were granted loans with the
 Union
                       same terms as other members with good credit. Deposits could be added to
                       share certificates and share certification could be redeemed prior to maturity
                       without penalty.


Our MLRs identified credit risk as an area of concern where examiners must be diligent
in understanding that the recent dramatic changes in the credit markets and in real
estate valuations affect nearly all credit unions. NCUA issued Letter to Credit Unions
No.: 08-CU-20 Evaluating Current Risks to Credit Unions, dated August 2008 to
address credit risk. Therefore, we are not making a recommendation at this time.




                                                                                                        17
OIG Capping Report on Material Loss Reviews
OIG-10-20



We found MBL issues affected credit unions as shown in Chart G (below).

Chart G
 Credit Union          MLR Issue: Member Business Lending
                       Management violated NCUA‟s MBL limits by failing to limit its aggregate net
                       MBL balance to the lesser of 1.75 times its net worth or 12.25 percent of its
                       total assets. Based on Huron‟s December 2006 net worth and total assets of
 Huron River Area      approximately $41 million and $363 million, respectively, Huron‟s MBL
 Credit Union          balance should not have exceeded approximately $44 million. As of February
                       2007, NCUA determined Huron had approximately $187 million worth of
                       MBLs in its Florida construction loan portfolio, an amount over four times the
                       statutory limit.
                       Management allowed some borrowers to own multiple properties - some on
                       the same street, which were not reported as member business loans. By
                       December 2006, the credit union‟s MBL balance was approximately $39
                       million, or 1.15 times its net worth and 10.9 percent of its total assets, which
                       was within NCUA‟s statutory limits. After reclassifying the loans, the MBL
                       balance increased to $86.7 million, nearly three times it‟s net worth and
                       double its statutory limits. The credit union‟s ratio of MBLs to assets was
                       more than 24 percent. Although examiners did not have accurate information
                       regarding the credit union‟s MBL balance because of misclassified MBLs,
 Norlarco Credit       examiners failed to recognize the borrower‟s intent was often misrepresented
 Union                 on the loan applications underwritten by the credit union‟s third-party provider,
                       First American. In fact, not until the credit union was placed in NCUA‟s
                       Special Actions did NCUA officials learn that management‟s internal controls
                       over the RCL program were so lax that the Board and management failed to
                       recognize the vast majority of the loans in the RCL portfolio were for
                       investment purposes. Additionally, officials in Special Actions determined
                       some borrowers owned multiple properties - some on the same street, which
                       were not being reported as member business loans (MBLs). As a result,
                       NCUA Special Actions required management to reclassify every construction
                       loan as a MBL until each borrower could be contacted to verify the intent of
                       their loan.
                       Management did not have an adequate MBL policy, particularly related to
                       equity requirements and lack of proper recordkeeping to monitor compliance
                       with an MBL waiver issued in August 2003, and ensuring income verification
 High Desert Federal   for MBL borrowers. Although examiners identified the credit union‟s MBL
 Credit Union          issues such as underwriting and permissible MBLs through DORs in every
                       examination from 2003 through 2008, examiners did not draw management‟s
                       attention to the fact that the credit union‟s DOR issues were repeat issues
                       that should have been addressed more timely.




                                                                                                       18
OIG Capping Report on Material Loss Reviews
OIG-10-20


 (Chart G Continued)

 Credit Union          MLR Issue: Member Business Lending

                       Management violated numerous MBL regulatory limits. Also, MBL
                       underwriting was not robust. Approximately $51 million of the MBL balances
                       remained on the credit union‟s delinquency report for the first three Call
                       Report cycles in 2008. One of the larger MBLs in delinquent status was not
 Eastern Florida
                       properly classified in the credit union‟s Call Report resulting in an understated
 Financial Credit
                       delinquent loan ratio. Examiners needed earlier and stronger supervisory
 Union
                       action, which may have influenced the credit union‟s Board and management
                       to limit the significant level of risk assumed during the institution‟s rapid
                       growth period, especially in their CDO leverage strategy and MBL activities,
                       where they suffered the largest losses that caused the failure.
 Clearstar Financial   Management continued to make MBLs despite being undercapitalized, a
 Credit Union          violation of NCUA Rules and Regulations.


                       Management violated NCUA Rules and Regulations over member MBL
 Ensign Federal
                       limitations for construction and development loans, MBLs to one individual or
 Credit Union
                       associated group, and aggregate MBLs, respectively. All repeat violations
                       from a prior examination.
 St. Paul Croatian     Management had no MBL policies in place despite having MBLs in the
 Federal Credit        portfolio.
 Union



Our MLRs identified member business lending as an area of concern. NCUA has
provided guidance to examination staff and credit unions related to business lending,
through issuance of Letter to Credit Unions No.: 10-CU-02 Current Risks in Business
Lending and Sound Risk Management Practices, dated January 2010, and has made
improvements to the Supervision and Quality Assurance for critical risk areas such as
business lending through the addition of member business/specialized lending staff
positions to assist field examiners, and through current efforts to revise business
lending rules and regulations that if adopted, will tighten business lending risk
management. As a result of NCUA‟s recent and planned actions in the area of business
lending, we are not making a recommendation at this time.




                                                                                                       19
OIG Capping Report on Material Loss Reviews
OIG-10-20



B. NCUA and SSA Supervision of Credit Unions in OIG MLR Reports

                               As previously noted, we also identified several
 Examiners Could               shortcomings related to NCUA and SSA supervision efforts.
 Have Mitigated the
                               Specifically, we identified examiner deficiencies in quality
 Losses to the NCUSIF
                               control efforts, examination procedures, the economic
                               environment, as well as enforcement issues. We believe
had examiners acted more aggressively in their supervision actions over these critical
issues, the looming safety and soundness concerns that were present early-on in nearly
every failed institution, could have been identified sooner and the eventual losses to the
NCUSIF could have been stopped or mitigated.

Chart I (below) identifies credit unions with examination quality control deficiencies.

Chart I

 Credit Union           MLR Issue: Examination Quality Control

 New London             Examiner‟s failed to follow-through on regional quality control review issues.
 Security Credit        In addition, examiners failed to adequately document their examinations, and
 Union                  examiners were not regularly rotated.

                        The examination team remained the same for more than eight years, with EIC
 High Desert Federal    responsibilities merely rotating between the same two examiners. These
 Credit Union           examiners became overly familiar with credit union management, staff,
                        processes, and culture, which created a lack of objectivity in the evaluation of
                        the risks impacting the credit union.
 St. Paul Croatian      NCUA did not adequately rotate examiners in accordance with requirements
 Federal Credit         in the Examiner‟s Guide.
 Union



Recommendations
We recommend NCUA management:

    10. Review the current requirements and levels that trigger a Quality Control Review and
          expand the process as necessary. Provide national guidelines for the Quality Control
          Review process so that all Regions are consistent in their reviews.

    11. Require Supervisory Examiners to provide a written response to the results of Quality
          Control Review on any recommendations made by the Quality Control Review.

Management’s Comments
NCUA management agreed with recommendations 10 and 11. For Recommendation
10, management indicated in 2010 they had implemented a Quality Review process
which included a sampling of examinations and all associated supervision and quality
assurance documentation from each Region with plans to issue a national summary

                                                                                                         20
OIG Capping Report on Material Loss Reviews
OIG-10-20



review report. Management also indicated that the previously mentioned new national
supervision manual will standardize the quality control review process nationwide. In
addition, management stated they are currently restructuring the quality assurance
process. For Recommendation 11, management plans to implement a system requiring
supervisory examiners to respond to material weaknesses identified by regional quality
reviews.

Evaluation of Management’s Comments
Management‟s current and planned actions are responsive to the recommendations.

Chart J (below) identifies credit unions with deficiencies with their examination
procedures.

Chart J

 Credit Union          MLR Issue: Poor Examination Procedures and Enforcement

                       Examiners did not develop or follow-up on liquidity “red flag” issues, neither
 Huron River Area
                       did examiners adequately monitor or respond to liquidity trends in the Call
 Credit Union
                       Report.
                       Examiners did not properly assess the credit union‟s internal control
 New London
                       environment. Specifically, examiners never completed any of the following
 Security Credit
                       examination checklists: investment controls, investment accounting controls,
 Union
                       investment third party controls, investment custodial controls, or Red Flag
                       Procedures.
 High Desert Federal   Examiners did not expand examination procedures over issues. Specifically,
 Credit Union          neither the Guide nor the Manual specifies a process to effectively correct
                       repeat DOR issues from prior examinations.
 Center Valley         Examiners did not properly assess the credit union‟s lax internal control
 Federal Credit        environment, which made an environment susceptible to fraud.
 Union
                       Examiners did not respond aggressively or timely enough to Cal State 9‟s
                       increasing credit and liquidity risks. Examiner believed that they did not have
                       any leverage to be more forceful with management because management
                       was not breaking any rules. In addition, examiners relied too heavily on
 Cal State 9           management‟s statements and presentations regarding the credit union‟s risk
 Credit Union          management program rather than focusing on the magnitude of the credit risk
                       the examination processes revealed. Also, examiners did not use available
                       mechanisms to timely and adequately test and monitor the portfolio to
                       validate or dispute management‟s asserted ability to manage the risks
                       through monitoring reports.




                                                                                                        21
OIG Capping Report on Material Loss Reviews
OIG-10-20


 (Chart J Continued)


 Credit Union          MLR Issue: Poor Examination Procedures and Enforcement

                       Examiners should have performed further evaluation of management‟s lack of
 Eastern Florida       understanding of the risks and characteristics of the CDO investments earlier
 Financial Credit      in the process. Further evaluation would have concluded that the credit
 Union                 union‟s ownership of the high-risk securities represented an undue risk to the
                       credit union, and could have required management to place more prudent
                       limits on CDO holdings, or otherwise required earlier divestiture.
                       Examiners did not adequately assess nor aggressively pursue resolution of
 Clearstar Financial
                       critical risks created by management‟s high risk strategies related to loan
 Credit Union
                       concentration and credit quality. Further examiner processes impeded
                       detection and effective enforcement of corrective actions.
                       Examiners did not adequately assess critical risks created by management
 Ensign Federal        decisions and strategies related to concentration, credit, liquidity, and
 Credit Union          profitability. Further, examiners did not aggressively pursue a timely
                       resolution to concerns raised in the exams, resulting in missed opportunities
                       to mitigate those risks and limit NCUSIF exposure.
 St. Paul Croatian     Examiners did not properly monitor trends.
 Federal Credit
 Union



Recommendation
We recommend NCUA management:

     12. Determine whether credit unions with repeat DORs have taken appropriate
         corrective action. In the event that corrective action has not been taken,
         examiners should be instructed to elevate the supervisory response, including
         the taking of enforcement action when necessary.

Management’s Comments
NCUA management agreed with recommendation 12. Management indicated the
identification of repeat DOR items and appropriate examiner response is already part of
the regional quality control review process and will continue to be emphasized in the
new national supervision manual. Management also indicated they are currently
evaluating other methods to better capture repeat DOR items.

Evaluation of Management’s Comments
Management‟s current and planned actions are responsive to the recommendations.




                                                                                                       22
OIG Capping Report on Material Loss Reviews
OIG-10-20



Appendix A – NCUA-OIG Material Loss Reviews


   Report Title                        Report Number   Date Issued
   Material Loss Review of
                                       OIG-08-10       November 26, 2008
   Huron River Area Credit Union
   Material Loss Review of
                                       OIG-09-01       May 11, 2009
   Norlarco Credit Union
   Material Loss Review of New
   London Security Federal Credit      OIG-09-03       October 23, 2009
   Union
   Material Loss Review of High
                                       OIG-10-01       March 17, 2010
   Desert Federal Credit Union
   Material Loss Review of Center
                                       OIG-10-02       April 14, 2010
   Valley Federal Credit Union
   Material Loss Review of
                                       OIG-10-03       April 14, 2010
   Cal State 9 Credit Union
   Material Loss Review of Eastern
                                       OIG-10-04       May 5, 2010
   Financial Florida Credit Union
   Material Loss Review of Clearstar
                                       OIG-10-14       September 22, 2010
   Financial Credit Union
   Material Loss Review of
                                       OIG-10-15       September 23, 2010
   Ensign Federal Credit Union
   Material Loss Review of St. Paul
                                       OIG-10-16       October 7, 2010
   Croatian Federal Credit Union




                                                                            23
OIG Capping Report on Material Loss Reviews
OIG-10-20



Appendix B – Management Comments




                                              24
OIG Capping Report on Material Loss Reviews
OIG-10-20




                                              25
OIG Capping Report on Material Loss Reviews
OIG-10-20




                                              26
OIG Capping Report on Material Loss Reviews
OIG-10-20




                                              27
OIG Capping Report on Material Loss Reviews
OIG-10-20




                                              28
OIG Capping Report on Material Loss Reviews
OIG-10-20




                                              29
OIG Capping Report on Material Loss Reviews
OIG-10-20




                                              30
